<html>
<title> - A SYSTEM RUED: INSPECTING FOOD</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





                     A SYSTEM RUED: INSPECTING FOOD

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CIVIL SERVICE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2004

                               __________

                           Serial No. 108-182

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-290                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

         Subcommittee on Civil Service and Agency Organization

                   JO ANN DAVIS, Virginia, Chairwoman
TIM MURPHY, Pennsylvania             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                MAJOR R. OWENS, New York
MARK E. SOUDER, Indiana              CHRIS VAN HOLLEN, Maryland
ADAH H. PUTNAM, Florida              ELEANOR HOLMES NORTON, District of 
NATHAN DEAL, Georgia                     Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     Ron Martinson, Staff Director
        B. Chad Budgard, Deputy Staff Director and Chief Counsel
                            Reid Voss, Clerk
            Tania Shand, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 30, 2004...................................     1
Statement of:
    Dyckman, Lawrence J., Director, National Resources and 
      Environment, U.S. General Accounting Office; Robert E. 
      Brackett, Director, Center for Food Safety and Applied 
      Nutrition, Food and Drug Administration; and Merle Pierson, 
      Deputy Under Secretary for Food Safety, U.S. Department of 
      Agriculture................................................     8
    Glickman, Dan, director, John F. Kennedy School of 
      Government, Harvard University, and former Secretary of 
      Agriculture; and Caroline Smith DeWaal, director, food 
      safety, Center for Science and Public Interest.............   106
Letters, statements, etc., submitted for the record by:
    Brackett, Robert E., Director, Center for Food Safety and 
      Applied Nutrition, Food and Drug Administration, prepared 
      statement of...............................................    43
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     7
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    DeWaal, Caroline Smith, director, food safety, Center for 
      Science and Public Interest, prepared statement of.........   115
    Dyckman, Lawrence J., Director, National Resources and 
      Environment, U.S. General Accounting Office, prepared 
      statement of...............................................    11
    Glickman, Dan, director, John F. Kennedy School of 
      Government, Harvard University, and former Secretary of 
      Agriculture, prepared statement of.........................   110
    Pierson, Merle, Deputy Under Secretary for Food Safety, U.S. 
      Department of Agriculture, prepared statement of...........    75

 
                     A SYSTEM RUED: INSPECTING FOOD

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                  House of Representatives,
          Subcommittee on Civil Service and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room 2203, Rayburn House Office Building, Hon. Jo Ann Davis of 
Virginia (chairwoman of the subcommittee) presiding.
    Present: Representatives Jo Ann Davis of Virginia, Davis of 
Illinois, Norton, Deal, Blackburn, Murphy, and Van Hollen.
    Staff present: Ron Martinson, staff director; B. Chad 
Bungard, deputy staff director and chief counsel; Shannon 
Meade, professional staff member; Reid Voss, clerk; John 
Landers, OPM detailee; Michelle Ash, minority senior 
legislative counsel; Tania Shand, minority professional staff 
member; and Teresa Coufal, minority assistant clerk.
    Ms. Davis of Virginia. We're going to go ahead and start, 
and there will be a few more Members joining us in a few 
moments.
    The Subcommittee on Civil Service and Agency Organization 
will come to order.
    Two years ago, the Federal Government saw its largest 
reorganization since the end of World War II with the creation 
of the Homeland Security Department, which involved the merger 
of 22 existing agencies and 180,000 employees into one mammoth 
Cabinet department. Today, this subcommittee begins its 
examination of how the rest of the Government is structured, 
and whether the existing structures need reorganization on a 
much smaller scale.
    We begin this process by focusing on one aspect of the 
Federal Government that touches our daily life, which is how 
the Government inspects food. Right now, there are more than a 
dozen Federal agencies that enforce more than 35 food safety 
laws, creating such illogical situations as the Food and Drug 
Administration having responsibility for inspecting closed 
faced meat sandwiches, while the U.S. Department of Agriculture 
is in charge of inspection open faced meat sandwiches. Or if 
you prefer, the FDA is in charge of cheese pizzas, while the 
USDA has jurisdiction over pepperoni pizza.
    And here is one more. The FDA inspects both beef soup and 
chicken broth, but USDA inspects chicken soup and beef broth. 
In case you didn't get that, it's reversed. As the old saying 
goes, you can't make this stuff up.
    This situation did not happen overnight, but it's a result 
of piecemeal legislative solutions crafted over the years. It 
is a good example of why, every once in a while, Congress needs 
to take a step back and look at the whole picture to see if 
there is some rearranging that should take place.
    In this instance, one possible solution that some have 
raised is to consolidate all the food inspection programs under 
a single agency. We're going to hear testimony today on that 
subject, as well as the other organizational issues facing food 
inspection programs. Regardless of the organizational ideas 
offered here today, I want to emphasize at the outset that 
everyone in this room is in agreement that we want our food 
supply to be safe. So that is not an issue.
    I thank our witnesses and I look forward to the discussion.
    We've been joined now by Ms. Holmes Norton and I'm going to 
recognize you. Do you have an opening statement?
    [The prepared statement of Hon. Jo Ann Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5290.096
    
    Ms. Norton. Thank you very much, Madam Chairwoman. I want 
to especially thank you for calling this hearing on a subject 
of vital importance to the American people, especially in 
recent years and months. Some of us thought that mad cow would 
never make its way, for example, to the United States, some of 
us thought it was only a matter of time. I grew up thinking 
that the food supply of the United States was impenetrable. We 
have learned differently.
    We have just finished a major reorganization, one of the 
largest reorganizations since World War II, of the Homeland 
Security agency. I'm on the Homeland Security Committee, I was 
on the two main committees that considered most of the 
legislation that resulted in the Department.
    As much as it is apparent that this set of blocks doesn't 
make much sense, about the easiest thing to do, we've learned, 
is to say that what it takes to cure a problem is simply 
reorganize it. I happen to be a big fan of reorganization, 
because I believe in rational structures. When I headed a 
Federal agency, one of the first things we did was to 
reorganize the agency, reconfigure it to better do its job and 
I do believe that it worked.
    But we are still very much in a learning mode when it comes 
to the Department of Homeland Security, huge disruptions and 
disquiet has resulted in some parts of the agency that we learn 
are far worse off than they were before, such as processing of 
immigration claims. Perhaps there are other parts that are 
better.
    I do hope before we jump in again with both feet that we 
learn from that experience, I certainly hope that we learn from 
the experience that employees have had, where we have disrupted 
the way in which employees relate to the agencies from which 
they came, thrown out many of their Civil Service and 
collective bargaining rights all in the name of reorganization. 
It does seem to me one can reorganize without that kind of 
penalty and disruption.
    Finally, let me say that because of the melange we see of 
agencies with different jurisdictions when it comes to our food 
supply, of course, is the way in which Congress does business. 
The way in which we do business is of course endemic to a 
democratic society. When a crisis arises, and when a problem 
arises, we say let's fix that problem. And what you have if you 
will forgive the analogy is some real sausage there. We just 
pack it in wherever we can seem to fit, and nobody sits down 
and says, now, let's do this in some rational way, even if we 
reorganize our food, our approach to food safety, we're likely 
to continue to do that.
    I would only caution, Madam Chairwoman, that we take a deep 
breath, learn from what is happening to the Homeland Security 
Department before we jump right back in with another whole, big 
reorganization with all that entails for employees and 
management alike.
    Thank you, Madam Chairwoman.
    Ms. Davis of Virginia. Thank you, Ms. Norton. We've been 
joined by our ranking member, Mr. Danny Davis. I'll yield to 
you for an opening statement.
    Mr. Danny Davis. Thank you very much, Madam Chairwoman, and 
let me apologize for being late. I was having difficulty 
pulling myself away from a very interesting discussion of the 
effectiveness of drug treatment at another hearing. So I thank 
you for your indulgence.
    Madam Chairwoman, experts and Members of Congress have long 
complained that there are jurisdictional overlaps within the 
executive branch. As a result, some important Federal missions 
slip through the cracks. Some complaints, however, go as far 
back as World War I, when calls for efficiency and economy in 
Government led to efforts to strengthen the President's 
management ability.
    In 1932, for the purposes of reducing expenditures and 
increasing efficiency in Government, the President was given 
statutory authorization to issue Executive orders proposing 
reorganization within the executive branch. A reorganization 
order became effective within 60 days, unless either the House 
of Congress adopted a resolution of disapproval. Modification 
of the President's reorganization plan authority was made 
necessary in 1983, when the Supreme Court in the Chattah case 
effectively invalidated Congress' continued reliance upon a 
concurrent resolution to disapprove of a proposed plan.
    Currently in the absence of reorganization plan authority, 
the President may propose executive branch reorganization 
through the normal legislative process. Calls to reorganize the 
Federal Government have more recently come from the National 
Commission on the Public Service. The Commission, also known as 
the Volcker Commission, released a report in January 2003 that 
included the recommendation that the Federal Government be 
reorganized into a limited number of mission related executive 
departments.
    The Federal Government's structure for regulating for 
structure is a prime example of Federal agency mission and 
program overlap. Twelve different agencies administer as many 
as 35 laws that make up the Federal food safety system. Two 
agencies account for most Federal food safety spending and 
regulatory responsibilities, the Food Safety and Inspection 
Service within the U.S. Department of Agriculture and the Food 
and Drug Administration within the Department of Health and 
Human Services.
    I look forward to hearing testimony from today's witnesses 
on how the Federal food safety system should be reorganized and 
who
should have the authority to effect the reorganization. So I 
thank you very much, Madam Chairwoman, and yield back the 
balance of my time and look forward to hearing from the 
witnesses.
    Thank you again.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5290.001
    
    Ms. Davis of Virginia. Thank you, Mr. Davis.
    Are there any further opening statements?
    [No response.]
    Ms. Davis of Virginia. I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, and that any answers to 
questions provided by the witnesses also be included in the 
record. Without objection, it is so ordered.
    I ask unanimous consent that the statement of the Grocery 
Manufacturers Association be included in the record. And 
without objection, it is so ordered.
    I ask unanimous consent that all exhibits, documents and 
other materials referred to by Members and the witnesses may be 
included in the hearing record and that all Members be 
permitted to revise and extend their remarks. And without 
objection, it is so ordered.
    On the first panel, we're going to hear from Mr. Lawrence 
Dyckman, Director of National Resources and Environment at the 
General Accounting Office. Second, we will hear from Dr. Robert 
Brackett, Director of the Center for Food Safety and Applied 
Nutrition at the Food and Drug Administration. And finally, we 
will hear testimony from Dr. Merle Pierson, from the U.S. 
Department of Agriculture.
    It is standard practice for this committee to administer 
the oath to all witnesses. If all the witnesses on both the 
first and second panel will please stand, I will administer the 
oath to you at one time. Anyone who is going to be testifying.
    If you'll please raise your right hands.
    [Witnesses sworn.]
    Ms. Davis of Virginia. Let the record reflect that the 
witnesses have answered in the affirmative.
    And if the first panel would come forward and please be 
seated.
    We will begin with you, Mr. Dyckman, Director of National 
Resources and Environment at the General Accounting Office. And 
we do have your complete statement in the record, so if you'd 
like to summarize for 5 minutes, we would certainly appreciate 
it.

STATEMENTS OF LAWRENCE J. DYCKMAN, DIRECTOR, NATIONAL RESOURCES 
  AND ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE; ROBERT E. 
    BRACKETT, DIRECTOR, CENTER FOR FOOd SAFETY AND APPLIED 
  NUTRITION, FOOD AND DRUG ADMINISTRATION; AND MERLE PIERSON, 
  DEPUTY UNDER SECRETARY FOR FOOD SAFETY, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Dyckman. Thank you, Madam Chairwoman. Good afternoon, 
Members.
    I'm pleased to be here today to discuss the subcommittee's 
interest in streamlining the Federal Government. Today I will 
highlight our considerable body of work on the Federal food 
safety system and whether its current design provides 
sufficient protection for consumers while ensuring logical and 
effective Government resources.
    In his September 2003 testimony before this subcommittee, 
the Controller General stressed the importance of beginning to 
take steps to achieve fundamental reorganization of the Federal 
Government into a limited number of mission related executive 
departments. His testimony pointed out that redundant, 
unfocused, uncoordinated programs waste scarce resources, 
confuse and frustrate program customers and limit overall 
program effectiveness.
    As we've heard in the opening statement, our food supply is 
governed by a highly complex system, more than 30 laws 
administered by 12 area agencies and various departments. Now, 
the system is not a product of strategic design but rather, it 
emerged piecemeal over many decades, and as was indicated, 
typically in response to particular health threats or economic 
crisis. The result, in our opinion, is a fragmented legal and 
organizational structure that gives responsibility for food 
commodities to different agencies and the real problem is, it 
provides them with significantly different authorities and 
responsibilities.
    As we heard in the opening statements, two principal food 
safety agencies involved are FDA and USDA, but many others are 
involved. And we have a flip chart which shows the ever popular 
frozen pizza example. If you look at the chart, and you have it 
before you, multiple agencies regulate both the ingredients and 
the processing of the pies. And to complicate matters, it was 
mentioned that non-meat pizzas fall under one agency, FDA, 
while pizzas with meat toppings fall under USDA. As a result, 
some manufacturers, those with meat toppings, get inspected on 
a daily basis while others are inspected much less frequently.
    The fact that the frequency of inspection is not based on 
risk is really a very important but troubling distinction 
between the two agencies' enabling legislation. USDA by law 
must maintain continuous inspection at slaughter facilities and 
visit each processing plant at least once a day while FDA 
generally visits plants under its jurisdiction once every 
several years.
    Another problem with the food safety system is that Federal 
resources are allocated on the basis of statutory requirements 
and not based on risk. If you look at the pie charts there, 
you'll see that USDA and FDA, their funds are not proportionate 
to the amount of food produced in terms of the food that they 
regulate. It's not proportionate to the level of consumption of 
these foods by the American consumers or even more importantly, 
the frequency of food-borne illnesses associated with these 
products. While USDA regulate about 21 percent of the consumer 
food supply, its expenditures are about 50 percent more than 
FDA's.
    Our past work has chronicled these problems with the 
current food safety system, but I'd like to go into, and my 
full statement goes into more detail, but I'd like to touch on 
some highlights of some additional problems. Let's talk about 
egg safety, the overlapping responsibilities there. FDA 
regulates whole eggs, which are eggs in shells. USDA regulates 
egg products, which are liquid eggs or freeze-dried egg 
products, mostly used for manufacturing. However, over 10 years 
has passed since the Government is aware that salmonella 
contamination from eggs poses a significant health risk, we 
still don't have a comprehensive Federal egg safety program.
    Another example, with regard to health benefits that 
certain food products claim. Our work shows that consumers face 
risks because current Federal laws and agencies do not 
consistently ensure that these products are safe. Also, health 
benefits may be treated differently by different agencies. 
There are three agencies involved with health claims, we have 
USDA, FDA and the Federal Trade Commission. This leads 
consumers to face a confusing array of decisions on health 
claims of certain products, and particularly on the health 
claims of dietary supplements.
    Now, the same fragmented structure in this inconsistent 
approach unfortunately is being used to ensure the safety of 
imported foods, which is an increasing part of the national 
diet. USDA must determine that foreign suppliers of meat and 
poultry products have food safety systems that are basically 
comparable to ours. We refer to that as equivalency agreements.
    While FDA, not having that authority, doesn't have similar 
requirements, and therefore it depends largely on port of entry 
inspections, which we have pointed out are not as effective.
    Let's look at livestock regulation. We've heard about the 
one case that we had in Washington on BSE, and the Canadian 
case. That's another example where you have USDA regulating the 
animal and the meat it produces, but FDA regulates the safety 
of the feed fed to the livestock. We believe this can 
compromise our ability to protect our citizens from animal 
diseases.
    Finally, potentially an even more serious issue is that the 
current food safety system is further challenged by the 
realization that American farms and ranches and our processed 
foods are in fact vulnerable to potential attack and deliberate 
contamination. As we recently reported to the Senate Committee 
on Governmental Affairs, bioterrorist attacks could be directed 
to many different targets in the farm to table continuum. This 
includes crops, livestock, food products, processing foods, 
transportation, storage facilities and even food and 
agricultural research laboratories.
    While both FDA and USDA have taken steps to protect our 
food supply from terrorist attack, we have to realize for the 
most part it's this antiquated system that we're talking about 
that we must depend on to prevent and respond to any such 
attacks.
    In conclusion, given the risk posed by the existing and the 
new threats that I spoke about, be they inadvertent or 
deliberate, we believe we can no longer afford these 
inconsistent, overlapping programs and this patchwork approach 
to food safety. It's time to ask whether a system that has 
developed piecemeal over many decades can efficiently and 
effectively respond to today's challenges. That's why we 
believe that creating a single food safety agency to administer 
a uniform risk-based inspection system is the most effective 
way to prevent and protect the Nation's food supply.
    Madam Chairwoman, I would be happy to answer any questions 
after the panel is completed.
    [The prepared statement of Mr. Dyckman follows:]

    [GRAPHIC] [TIFF OMITTED] T5290.002
    
    [GRAPHIC] [TIFF OMITTED] T5290.003
    
    [GRAPHIC] [TIFF OMITTED] T5290.004
    
    [GRAPHIC] [TIFF OMITTED] T5290.005
    
    [GRAPHIC] [TIFF OMITTED] T5290.006
    
    [GRAPHIC] [TIFF OMITTED] T5290.007
    
    [GRAPHIC] [TIFF OMITTED] T5290.008
    
    [GRAPHIC] [TIFF OMITTED] T5290.009
    
    [GRAPHIC] [TIFF OMITTED] T5290.010
    
    [GRAPHIC] [TIFF OMITTED] T5290.011
    
    [GRAPHIC] [TIFF OMITTED] T5290.012
    
    [GRAPHIC] [TIFF OMITTED] T5290.013
    
    [GRAPHIC] [TIFF OMITTED] T5290.014
    
    [GRAPHIC] [TIFF OMITTED] T5290.015
    
    [GRAPHIC] [TIFF OMITTED] T5290.016
    
    [GRAPHIC] [TIFF OMITTED] T5290.017
    
    [GRAPHIC] [TIFF OMITTED] T5290.018
    
    [GRAPHIC] [TIFF OMITTED] T5290.019
    
    [GRAPHIC] [TIFF OMITTED] T5290.020
    
    [GRAPHIC] [TIFF OMITTED] T5290.021
    
    [GRAPHIC] [TIFF OMITTED] T5290.022
    
    [GRAPHIC] [TIFF OMITTED] T5290.023
    
    [GRAPHIC] [TIFF OMITTED] T5290.024
    
    [GRAPHIC] [TIFF OMITTED] T5290.025
    
    [GRAPHIC] [TIFF OMITTED] T5290.026
    
    [GRAPHIC] [TIFF OMITTED] T5290.027
    
    [GRAPHIC] [TIFF OMITTED] T5290.028
    
    [GRAPHIC] [TIFF OMITTED] T5290.029
    
    [GRAPHIC] [TIFF OMITTED] T5290.030
    
    Ms. Davis of Virginia. Thank you, Mr. Dyckman. Now we'll 
hear from Dr. Robert Brackett, Director of the Center for Food 
Safety and Applied Nutrition at the Food and Drug 
Administration. Dr. Brackett, you're recognized for 5 minutes, 
and again, we have your full statement for the record, so if 
you can summarize, that would be great.
    Mr. Brackett. Thank you and good afternoon, Chairwoman 
Davis and members of the committee. I am Dr. Bob Brackett, 
Director of the Center for Food Safety and Applied Nutrition at 
the Food and Drug Administration within the Department of 
Health and Human Services. And I am pleased to be here today 
with my colleague from USDA, Dr. Merle Pierson, as well as Mr. 
Dyckman, to discuss the Federal food safety system. And I do 
want to thank you for the opportunity to provide testimony on 
behalf of Health and Human Services.
    The subcommittee has expressed interest in the potential 
benefits of consolidating a number of food safety functions 
into a single food agency. Over the years, there has been much 
discussion about this. In fact, in 2002, the White House looked 
into this issue and concluded that the goals of the 
administration are better advanced through enhanced interagency 
coordination rather than through development of legislation to 
create a single food agency.
    Is the interagency food coordination working? Yes, the 
American food supply continues to be among the safest in the 
world, and food safety agencies are working more closely than 
ever before. Of course, we continue to face many challenges. We 
face the traditional challenge of reducing the incidence of 
food-borne illness due to unintentional contamination and in 
addition, we now face a heightened challenge of protecting food 
from deliberate contamination.
    To address these issues, the Department of Health and Human 
Services has been implementing the most fundamental 
enhancements in our food safety and food defense activities in 
many years. FDA is the Federal agency that regulates about 80 
percent of the Nation's food, everything we eat except for 
meat, poultry and certain egg products, which are regulated by 
our partners at USDA. FDA's responsibility extends to live food 
animals and animal feed. Our sister public health agency in 
HHS, the Centers for Disease Control and Prevention, plays a 
very important and complementary role through its surveillance 
of illness associated with the entire food supply. Food supply 
and food defense continue to be top priorities for this 
administration.
    In our food safety and defense efforts, FDA has many 
partners, Federal and State agencies, academia, and of course 
industry. We're working closely with our Federal partners, such 
as USDA, the Department of Homeland Security, the Homeland 
Security Council at the White House, and the Department of 
State as well as with law enforcement and intelligence 
gathering agencies.
    I want to emphasize the close working relationship with 
Food Safety and Inspection Service and the Animal and Health 
Plant Inspection Services at USDA, Customs and Border 
Protection at the Department of Homeland Security, and with our 
sister public health agencies, CDC and the National Institutes 
of Health. Specific examples of cooperative activities included 
within HHS and USDA and the Environmental Protection Agency and 
other agencies that are working with DHS, Department of 
Homeland Security, to achieve the objectives of Homeland 
Security Presidential Directive No. 9, or HSPD-9, which has 
established a national policy to defend the agriculture and 
food system against terrorist attacks, major disasters and 
emergencies.
    A second example is that FDA, CDC and USDA work together on 
Healthy People 2010 to identify the most significant 
preventable threats to health and to establish national goals 
to reduce these threats. FDA, CDC and the Food Safety 
Inspection Service work together on food code to provide a 
model ordinance to local, State and Federal Governmental bodies 
and tribal nations to ensure that the food provided by retail 
food establishments and institutions such as nursing homes is 
not a vector of communicable diseases.
    To increase laboratory search capacity, FDA has worked with 
CDC and FSIS to expand laboratory response network by 
establishing the Food Emergency Response Network to include a 
substantial number of new laboratories capable of analyzing 
foods for agents of concern. These are just a few of the many 
cooperative activities that we participate together on.
    Last July, former FDA Commissioner Mark McClelland issued a 
report to Health and Human Services Secretary Tommy Thompson 
entitled, ``Ensuring the Safety and Security of the Nation's 
Food Supply.'' The report outlines a comprehensive 10 point 
program to protect the safety and security, now referred to as 
defense, of our food supply. I'll briefly describe three of the 
program areas.
    A key component of the FDA's strategic plan is to assure a 
high quality professional work force. So we're trying to create 
a stronger FDA. FDA has created many new human resource 
policies to attract and keep high caliber employees.
    A second point involves imports. Thanks to a bipartisan 
congressional support, a fiscal year 2002 supplemental 
appropriation enabled FDA to hire over 800 employees, 635 of 
these were hired principally to address food safety and food 
defense issues, primarily at the borders. With these additional 
field employees, we've expanded FDA's presence at ports of 
entry, increased surveillance of imported foods, increased 
domestic inspections and enhanced our laboratory analysis 
capacity. In addition, we're using risk management strategies 
to achieve the greatest food protection for our limited 
resources.
    The Bioterrorism Act provided the Secretary of Health and 
Human Services with new authorities to protect the Nation's 
food supply against the threat of intentional contamination and 
other food related emergencies. These new authorities will 
improve our ability to act quickly in responding to a 
threatened or actual terrorist attack as well as other food 
related emergencies. FDA has been working hard to implement 
this law effectively and efficiently.
    In conclusion, the Department of Health and Human Services 
is making tremendous progress in its ability to ensure the 
safety and defense of the Nation's food supply. And due to the 
enhancements being made by FDA, CDC and other agencies and due 
to the close coordination between the Federal food safety, 
public health, law enforcement and intelligence gathering 
agencies, the U.S. food safety and defense system is stronger 
than ever before.
    Thank you for this opportunity to discuss Health and Human 
Services food safety and defense activities, and I would be 
pleased to respond to any questions after the panel.
    [The prepared statement of Dr. Brackett follows:]

    [GRAPHIC] [TIFF OMITTED] T5290.031
    
    [GRAPHIC] [TIFF OMITTED] T5290.032
    
    [GRAPHIC] [TIFF OMITTED] T5290.033
    
    [GRAPHIC] [TIFF OMITTED] T5290.034
    
    [GRAPHIC] [TIFF OMITTED] T5290.035
    
    [GRAPHIC] [TIFF OMITTED] T5290.036
    
    [GRAPHIC] [TIFF OMITTED] T5290.037
    
    [GRAPHIC] [TIFF OMITTED] T5290.038
    
    [GRAPHIC] [TIFF OMITTED] T5290.039
    
    [GRAPHIC] [TIFF OMITTED] T5290.040
    
    [GRAPHIC] [TIFF OMITTED] T5290.041
    
    [GRAPHIC] [TIFF OMITTED] T5290.042
    
    [GRAPHIC] [TIFF OMITTED] T5290.043
    
    [GRAPHIC] [TIFF OMITTED] T5290.044
    
    [GRAPHIC] [TIFF OMITTED] T5290.045
    
    [GRAPHIC] [TIFF OMITTED] T5290.046
    
    [GRAPHIC] [TIFF OMITTED] T5290.047
    
    [GRAPHIC] [TIFF OMITTED] T5290.048
    
    [GRAPHIC] [TIFF OMITTED] T5290.049
    
    [GRAPHIC] [TIFF OMITTED] T5290.050
    
    [GRAPHIC] [TIFF OMITTED] T5290.051
    
    [GRAPHIC] [TIFF OMITTED] T5290.052
    
    [GRAPHIC] [TIFF OMITTED] T5290.053
    
    [GRAPHIC] [TIFF OMITTED] T5290.054
    
    [GRAPHIC] [TIFF OMITTED] T5290.055
    
    [GRAPHIC] [TIFF OMITTED] T5290.056
    
    [GRAPHIC] [TIFF OMITTED] T5290.057
    
    [GRAPHIC] [TIFF OMITTED] T5290.058
    
    [GRAPHIC] [TIFF OMITTED] T5290.059
    
    [GRAPHIC] [TIFF OMITTED] T5290.060
    
    Ms. Davis of Virginia. Thank you, Dr. Brackett. Finally, 
we'll hear from Mr. Merle Pierson, with the USDA. Dr. Pierson, 
again, your statement is in the record, if you would summarize 
in 5 minutes.
    Mr. Pierson. Madam Chairwoman, I appreciate the opportunity 
to speak to you about the important issue of protecting the 
Nation's food supply. I'm Dr. Merle Pierson, Deputy Under 
Secretary for Food Safety at USDA.
    Although I served in this capacity for only the past 2 
years, my entire career, including 32 years at Virginia Tech, 
has been devoted to food safety and public health. First, let 
me offer a brief overview of the work and responsibilities of 
the Food Safety Inspection Service [FSIS]. FSIS operates under 
the legal and statutory authorities of the Federal Meat 
Inspection Act, the Poultry Products Inspection Act and the Egg 
Products Inspection Act. Under these authorities, FSIS inspects 
all meat, poultry and egg products sold in interstate commerce 
and reinspects imported products to ensure that they meet U.S. 
food safety standards.
    Ensuring the safety of meat, poultry and egg products 
requires a strong, well integrated infrastructure. In order to 
accomplish this, FSIS has a work force of approximately 10,000 
employees, which includes 7,600 inspection personnel stationed 
in over 6,000 federally inspected meat, poultry and egg 
products plants every single day these plants are in operation. 
FSIS jurisdiction encompasses over 45 percent of all foods 
produced by U.S. agriculture. The FSIS work force verifies the 
processing of 43.6 billion pounds of red meat, 49.2 billion 
pounds of poultry, 3.7 pounds of liquid egg products, certifies 
that these meet strict statutory requirements.
    In addition, 3.8 billion pounds of imported meat, poultry 
and processed egg products were presented for entry into the 
United States from 28 of the 33 countries eligible to export in 
2003. I welcome the discussion on the creation of a single food 
safety agency. As you and members of the subcommittee are 
aware, any food safety and security system must be able to meet 
current and future food safety and security challenges. In 
addition, I strongly believe that any effective food safety and 
security system must be rooted in public health and science.
    FSIS believes and the GAO and National Academy of Sciences 
has agreed that a critical component of the food safety system 
is a verifiable food safety inspection system that is both risk 
based and science based. A risk based system allocates 
resources based on the greatest risks or hazards, while a 
science based system takes these risks and hazards into account 
to develop science based programs and policies.
    Thanks in part to the efforts by FSIS to follow the 
scientific approach in administering its food safety programs, 
the American public remains confident of the safety of the U.S. 
food supply. Additionally, our efforts are paying off, as seen 
by the decline in food-borne illness over the past 6 years. 
FSIS routinely communicates and coordinates with its sister 
public health agencies. Cooperation, communication and 
coordination are absolutely essential to effectively address 
public health issues.
    I'd like to point out a few of the many examples 
exemplified in these successful partnerships. FSIS works 
closely with the White House Homeland Security Council, the 
Department of Homeland Security and the Department of Health 
and Human Services, the USDA Homeland Security staff and other 
Federal, State and local partners to develop and carry out 
strategies to protect the food supply from potential attack.
    In December 2003 there was the discovery of a single case 
of BSE in Washington State. This provides an excellent example 
of the strong communication ties between USDA and its Federal 
and State food safety partners. The Federal Government's swift 
response to the BSE diagnosis played a vital role in 
maintaining high consumer confidence.
    Since 1999, FSIS and FDA have had an MOU to exchange 
information on an ongoing basis about establishments that fall 
under both jurisdictions. Another example is the Codex 
Alimentarious Commission, which is a joint WHO-FAO 
international standard setting body for food safety. The USDA 
Under Secretary for Food Safety has responsibility for 
leadership of Codex with the U.S. Government and the Codex 
office is managed through FSIS. Codex is an excellent example 
of wide reaching coordination of food safety activities 
throughout the U.S. Government.
    In considering a single food safety agency, Congress must 
analyze the efficacy of the single food safety agency models in 
the countries that have adopted such paradigms, while being 
mindful of the ultimate goal, improving food safety and public 
health. FSIS bases its policy decisions on science, so the 
single food safety agency discussion boils down to the 
question, will there be a measurable benefit to public health.
    As with any new food safety and security effort, we want to 
make sure we maintain and continue improving on any progress 
that we have made to improve public health. We must also 
consider the costs associated with any major overhaul to the 
U.S. food safety inspection system. In addition, Congress would 
need to determine how current statutory authorities would be 
merged into a single food safety agency. The acts under which 
the food safety inspection service operates are different than 
the Federal Food, Drug and Cosmetic Act administered by the 
Food and Drug Administration. Under the acts FSIS administers, 
it must find a product not adulterated before the product can 
enter commerce. This is because inherent in these acts is a 
finding by Congress that the risks presented by meat, poultry 
and egg products are such that trained inspectors must affirm 
that these products are safe before they can enter commerce and 
be distributed to consumers.
    We are proud of our accomplishments, particularly the 
declines in food-borne illnesses over the past few years, and 
we must maintain and improve on the progress that FSIS, FDA, 
and our food safety partners have made thus far. Thank you for 
the opportunity to provide these overview comments on our food 
safety and security programs. We look forward to working with 
Congress to continue to keep the Nation's food supply safe and 
secure and strengthen public health. I certainly welcome any 
other questions or comments. Thank you.
    [The prepared statement of Mr. Pierson follows:]

    [GRAPHIC] [TIFF OMITTED] T5290.061
    
    [GRAPHIC] [TIFF OMITTED] T5290.062
    
    [GRAPHIC] [TIFF OMITTED] T5290.063
    
    [GRAPHIC] [TIFF OMITTED] T5290.064
    
    [GRAPHIC] [TIFF OMITTED] T5290.065
    
    [GRAPHIC] [TIFF OMITTED] T5290.066
    
    [GRAPHIC] [TIFF OMITTED] T5290.067
    
    [GRAPHIC] [TIFF OMITTED] T5290.068
    
    [GRAPHIC] [TIFF OMITTED] T5290.069
    
    [GRAPHIC] [TIFF OMITTED] T5290.070
    
    [GRAPHIC] [TIFF OMITTED] T5290.071
    
    [GRAPHIC] [TIFF OMITTED] T5290.072
    
    [GRAPHIC] [TIFF OMITTED] T5290.073
    
    [GRAPHIC] [TIFF OMITTED] T5290.074
    
    [GRAPHIC] [TIFF OMITTED] T5290.075
    
    [GRAPHIC] [TIFF OMITTED] T5290.076
    
    [GRAPHIC] [TIFF OMITTED] T5290.077
    
    [GRAPHIC] [TIFF OMITTED] T5290.078
    
    Ms. Davis of Virginia. Thank you, Dr. Pierson. I thank all 
three of you.
    We are going to move now to the question and answer period, 
but I will say that we may very well be interrupted for a 
series of, I believe three votes. We may have to ask for your 
indulgence, to wait for us until we get back.
    I will yield now to my ranking member, Danny Davis, for 
questions.
    Mr. Danny Davis. Thank you very much, Madam Chairwoman, and 
I want to thank the witnesses.
    Mr. Dyckman, GAO has widely reported and talked about the 
high number of Federal employees that can be expected to retire 
over the next few years. What impact would these retirements 
have on our ability to protect the Nation's food services and 
to your knowledge, are the agencies, the U.S. Department of 
Agriculture and Food and Drug Administration, taking steps to 
address this probability?
    Mr. Dyckman. Mr. Davis, we have not looked specifically at 
human resource management issues in the inspection service at 
USDA or at FDA. But it is my understanding that like other 
agencies, they face aging work forces and the stress of trying 
to train their employees, to keep their skill levels up, and to 
transition to a new work force. But we haven't specifically 
looked at the impact of the aging work force on the food safety 
agencies.
    Mr. Danny Davis. Drs. Brackett and Pierson both in their 
testimony talked about in 2002, the administration established 
a policy coordinating committee to look into the possibility of 
creating a single food agency, and it concluded that the goals 
of the administration are better advanced through enhanced 
agency coordination, rather than creating a single agency. Do 
you agree or not agree?
    Mr. Dyckman. With all due respect, I can understand to some 
extent why the administration would do that. It is difficult to 
bring about change. Unfortunately, it usually takes a crisis in 
the food safety system. It might unfortunately take a health 
crisis, a larger outbreak of mad cow disease or foot and mouth 
disease or something of that nature.
    Obviously, you can improve the effectiveness of any system 
where you have multiple operatives of you have improved 
coordination. But I think the question really should be, why do 
we have to rely on coordination just because we have players 
there? Why can't we reshuffle the deck and have a smaller deck, 
so we don't have to rely on one agency talking to another 
agency? The issue of coordination obviously is important. Over 
the years we have done some work that has questioned in some 
cases the effectiveness of coordination.
    But I'm not here today to criticize FDA or USDA. I think 
I'm here today to talk about, does it make sense to have a 
single food safety agency. If we had to do it from scratch, if 
we just started today and we had to do it from scratch, would 
we create the existing organizational structure or would we 
create one agency.
    Obviously, the short answer to your question is, I can 
understand how the administration would like to improve 
coordination and not embark on a new reorganizational 
structure. But I think for the long term and for the American 
people, it really pays to have one agency look at food safety, 
for a lot of the reasons I outlined in my testimony.
    Mr. Danny Davis. Dr. Pierson, Dr. Brackett, why do you 
think that there appears to be so much resistance to, I mean, 
we know that agencies kind of grow up and take on roles and 
responsibilities that are perhaps a little different than if we 
were to start something from scratch or have the opportunity to 
just kind of say, we're going to create X to take care of these 
needs, and so no one, do you have any ideas about why there 
seems to be the reluctance to let something go and start 
something new?
    Mr. Pierson. As I stated in my opening comments, the 
baseline is protecting public health. That should be our main 
concern and consideration. We are certainly open and willing to 
have consideration, discussion, opportunities looked at in 
terms of how can we do what we're doing better, and again to 
enhance public health. So I don't think it's something that 
we're closed minded about it, but we're open to discussion and 
to further doing the best job we can possibly do. I think we're 
totally devoted to doing that.
    I might also further state as an example, there was a 
tremendous undertaking in creating the Department of Homeland 
Security, and the President and Congress should be applauded 
for that just absolutely major undertaking and doing something 
very, very well and very successfully. In doing so, we still, 
in USDA and other agencies have to work in a collaborative way. 
And we do very, very actively work in a collaborative way to 
address our issues and to cooperate to assure that the security 
of the American public is protected from potential threats.
    So the point I'm making is, if one creates a so-called 
single food safety agency, you still have to have collaboration 
and cooperation with other partners, other States, other 
governments, so on and so forth, in order to make that 
effective.
    Mr. Danny Davis. Thank you.
    Mr. Brackett. Congressman Davis, I would like to also 
emphasize that the current structure results from the statutes 
that we must operate under. So even with the single food agency 
model, you would still end up having two systems, one governing 
meats, poultry and eggs, the others all the other foods. So 
again, the coordination, the communication between these 
different groups that would oversee those sorts of foods would 
still be critical, and as critical as they are right now.
    Mr. Dyckman. Could I just add, I should have probably added 
that it's not our intent to just simply create a single food 
safety agency. And I agree with Dr. Brackett that doing that by 
itself wouldn't accomplish that much. What we're really talking 
about is looking at the underlying legislation, coming up with 
a single food safety model legislation that covers all food 
based on science or risk.
    The other thing, and then, and you can even do that before 
you reorganize, and maybe you might find that it's not 
necessary to reorganize, you could just have a level playing 
field on the regulatory authorities of the agencies.
    But I do want to add something interesting. In our full 
testimony we have a chart which shows that, we interviewed 
senior, very senior, and one of them will testify, former 
executives that worked at USDA, even the former Secretary of 
Agriculture. It's funny, when you leave the position, 
frequently your ideology and your views on the subject change. 
I believe that on page 18 of our full statement, we indicate 
how these positions have changed. Most of the former executives 
that we spoke to do favor a consolidation.
    Mr. Danny Davis. Thank you very much, Madam Chairwoman.
    Ms. Davis of Virginia. Thank you, Mr. Davis. We still have 
about 13 minutes. Mr. Deal, do you have questions you'd like to 
ask?
    Mr. Deal. Thank you, Madam Chairwoman.
    Thank you, gentlemen, for being here. I think it's 
interesting to note, as you indicate in your surveys of these 
officials, they all agree on consolidation. We have the two 
heads of the two primary agencies here, and obviously there's 
always going to be the feeling and desire to protect what you 
already do, because you feel you're doing it well. And I notice 
your recommendation is not specific as to where that 
consolidation should occur.
    Is it inappropriate for me to ask you, Mr. Dyckman, whether 
or not you have a preference from the GAO perspective as to 
what agency, if any, and I notice that only two of the ones you 
interviewed said an independent agency should be created for 
that purposes, which is a minority position. I think most of us 
who are interested in downsizing Government would say we don't 
need to create another agency.
    Where would you think it would be most logically placed?
    Mr. Dyckman. That's obviously an interesting question, one 
that I've given a lot of thought to. I've testified on this 
issue before and I've been asked this before. I hope I'm 
consistent in my answer.
    First let me start off by saying there are advantages and 
disadvantages with creating it either in USDA or FDA. Our first 
preference would be an independent agency, but I recognize that 
creating another agency in this budgetary crisis that we find 
ourselves might be very difficult.
    So if you don't create an independent agency, the issue is 
which of the two existing agencies. USDA has, in my opinion, 
more expertise, has more resources and possibly one could argue 
more experience. They do, however, have a downside. They 
promote agriculture. And one can perceive a possible conflict 
of interest. And I'm not suggesting that there is a real 
conflict of interest, but one can perceive that.
    On the other hand, FDA, with a much smaller staff, one 
could argue that it is a health agency, and that's really what 
food safety should be about. So I could see transferring assets 
from one agency to another. The long answer is that I would 
lean, if I personally had to choose, toward putting it in FDA 
because it is a health agency and because it has, I think, more 
scientific knowledge and it is not a promotion agency, as 
agriculture is. But obviously that is a congressional decision.
    Mr. Deal. I would just make one further observation. One 
thing that all of your interviewees agree with is that there 
needs to be legislative reform, and I agree with that.
    Mr. Dyckman. That is correct.
    Mr. Deal. I have some specifics that may be more 
appropriate in the next panel we'll get a chance to discuss 
some of those specifics. Because quite frankly, what we have 
done with the legislative language in many cases is create a 
conflict between the agency that's required to certify food 
safety, we put barriers to their efforts to certify because of 
legislative language.
    The organic industry is one that comes to mind right off 
the top, because we are on the one hand allowing it to be 
touted as safer than everything else, yet they are excluded 
from many of the inspection provisions that are required of 
others that produce main line products that are not labeled 
with a label that is giving the impression to the public at 
least is safer than other products. That I think is primarily a 
legislative problem that needs to be addressed.
    I realize we have votes going on. Thank you, Madam 
Chairwoman.
    Ms. Davis of Virginia. Thank you, Mr. Deal.
    If you all will be patient with us, we have three votes. 
Hopefully we'll be back here around 4:15. But we will start the 
minute that I get back in here.
    Thank you. With that, the hearing is recessed.
    [Recess.]
    Ms. Davis of Virginia. Gentlemen, thank you so very much 
for your patience.
    Let me ask a few questions. Mr. Dyckman, let me ask you, 
would the consolidation of the food inspection activities 
result in any savings for the taxpayers?
    Mr. Dyckman. In the short term, probably no. There probably 
will be startup costs. In the longer term, or the mid-term, 
particularly again if we could have one uniform risk-based 
legislative authority to cover food safety, I think we would be 
able to reduce some inspections on foods that are not as high 
risk. Because inspections, particularly some of the USDA 
inspections, are fairly expensive on a product by product 
basis. So we might be able to free up some of that inspection 
power and make it available for higher risk things, or to some 
extent, reduce expenditures.
    But there are also other savings that can be achieved. You 
have regional office structures in two agencies, and some of 
them, I think on average are within 10 miles of one another. 
You have regulatory writing, you have enforcement, you have 
attorneys. I think there would be an economy of scale if you 
would combine.
    We haven't done specific work to look at some of the 
savings. And as you know, Madam Chairwoman, we are continuing 
our review to look at some of these issues. Plus we're also 
doing a review for the Senate Agriculture Committee to look at 
the experiences of some of the other nations that have 
consolidated their agencies to see if they have tangible 
benefits, whether it's cost savings or reductions in illnesses 
or pathogen reductions.
    So it's an appropriate question to ask. Right now I can't 
assure you that there will be cost savings. I believe I can 
assure you that there will be more effective regulation and 
you'll have a lot more latitude to spend the existing dollars 
that we spend. But I'm hopeful that there will be eventually 
cost savings.
    Ms. Davis of Virginia. If we went the route of the 
legislation to make it more consistent as opposed to 
consolidating and making one agency, would there be a savings 
then?
    Mr. Dyckman. There should be some savings, again, 
particularly in the inspection, reduction of inspections. If 
inspections were purely based on risk, and not on legislative 
requirements, there should be some. But obviously there are 
more opportunities if you can combine functions.
    Ms. Davis of Virginia. Let me go to you, Dr. Pierson. Based 
on something that you said on there being a cost to 
reorganization, some believe that the status quo is acceptable 
in this system because there is communication between the 
various agencies with food safety responsibilities. But 
wouldn't the system be better served if you spent more time and 
resources on enforcement as opposed to communication?
    Mr. Pierson. No. 1, certainly we again are very open to 
consideration of a regulatory authority on how we carry out our 
responsibilities. Whether or not there would be specific cost 
savings relative to----
    Ms. Davis of Virginia. I'm not even talking cost savings 
now, I'm talking, wouldn't we be better served if one or more 
agencies, depending on whether you want legislative or into one 
agency, wouldn't we be better served, the public, if we were 
concentrating on enforcement instead of worrying about FDA 
communicating with USDA?
    Mr. Pierson. Within our area of responsibility, of course, 
our main focus is in fact enforcement. And yes, there are 
certain areas where we do in fact have to specifically 
collaborate. I think these collaborations in fact, even though 
you might be under one structure, would still have to occur. 
You still have the boxes and lines and arrows to different 
areas, segments, etc.
    So it would depend on how all this would set up. There 
would still have to be collaboration between these areas. We 
have that within our own structure within FSIS. Different 
specific areas have to communicate with those other areas and 
collaborate with them, our policy labeling staff relative to 
field operations, and other examples where we have to have that 
continuing interaction. But our overall goal of course would be 
to focus on the major resources. That's where our major 
resources are, is in the inspection side of our agency.
    Ms. Davis of Virginia. I guess the one thing that concerns 
me on the whole issue of communication, and I think you guys 
are probably doing a very good job of that, please don't 
misunderstand me, I'm not attacking USDA or FDA. I'm just 
trying to make some sense out of where I know Congress has 
gotten us, not by any fault of yours. It's by piecemeal 
legislation.
    But it's been said that when everyone's in charge, no one's 
in charge. I guess that's my concern, if we were to have some 
problem or something and there's no one official who's in 
charge of all the food inspection, responsibility gets 
scattered around to so many different agencies. How do you deal 
with that? How do you handle that? And that can be to any of 
you.
    Mr. Pierson. I think that we, through the collaboration 
that does in fact occur that responsibility is quite well 
relied on, and there are many examples. Dr. Lester Crawford, 
Acting Commissioner of FDA, we work with him very closely. We 
know who has responsibilities for different areas. Very 
specifically, the BSE issue that occurred, I think we all very 
well realized our area's responsibility. It was really, I think 
an excellent example of a seamless interaction to address what 
was a major issue and to make sure that we maintain consumer 
confidence relative to the safety of this food supply.
    But that effort took interaction between Animal Plant 
Health Inspection Service, Food Safety Inspection Service, the 
Center for Veterinary Medicine. So it was multiple mission 
areas. I think it worked in, as I said, a seamless operation 
where we really understood those divisions of responsibilities.
    Ms. Davis of Virginia. I may come back with some other 
questions, but I want to get to our other Members here. Forgive 
me, but someone testified and said one of you was responsible 
for the dairy and so forth, but the other is responsible for 
the grain. How do you then reconcile what I said in my opening 
statement, one does chicken soup and beef broth and the other 
does chicken broth and beef soup? That doesn't fall in line 
with anything I heard. Where's the area of responsibility 
there? I guess I'm not even sure of the clear lines of 
responsibility, so I'm not sure how you all can keep it 
straight.
    But I want to go on to the other Members now. Mr. Deal, 
were you finished before we left?
    Mr. Deal. Yes, but if you have second go-around, I'd like 
to ask one quick question.
    Ms. Davis of Virginia. OK. Mr. Murphy.
    Mr. Murphy. Thank you, Madam Chairwoman. I'm really 
confused. Because your statement just about one does beef soup, 
another one does beef broth, and one does chicken broth, the 
other one does chicken soup, one does frozen cheese pizza----
    Ms. Davis of Virginia. You didn't even get it right.
    Mr. Murphy. No, I didn't. [Laughter.]
    The other one does frozen pizza manufacturing, meat pizza. 
Is there a difference between the level of job training 
requirements, education, anything between those who inspect 
cheese pizzas and those who inspect pepperoni or sausage pizza?
    I didn't think so. When we talk about, how about beef broth 
and beef soup? Why do we have to have two different groups 
inspecting those?
    Mr. Pierson. I think in part some of this is something that 
has evolved over the years, quite frankly.
    Mr. Murphy. I'm a psychologist, and we always say, one of 
the definitions of insanity is doing the same thing over and 
over again, expecting different results. This seems to fit in 
that category.
    Mr. Pierson. Yes.
    Mr. Murphy. Let me go to a statement that you made, Dr. 
Brackett. You said, should a single food agency be created, 
there may be a request to reallocate 635 field personnel to 
newly formed agencies. Such reallocation would measurably 
diminish FDA's ability and efficiency to potentially address 
issues involving the safety and efficacy. Why would we have to 
reallocate 635 people, if they're needed?
    Mr. Brackett. Congressman, I think the main reason why that 
would be necessary is actually, again, and a lot of this goes 
to the risk based, if you have a uniform inspection across all 
different commodities, you would be taking from areas to put 
them in another one, as opposed to doing it with a risk based 
system where you are focusing specifically on those areas that 
are the highest risk.
    Mr. Murphy. But I don't understand why merging this into 
one agency would prevent you from making the kind of 
adjustments necessary to do it right. I don't think that's part 
of the discussion here, is everybody do the same thing one way. 
But I would think the discussion is still to allow enough 
flexibility so that you could do the job.
    Mr. Brackett. It would be. And again, this goes back to my 
earlier statement about with the assumption that if you have 
the current statutory structure, you have all the meat, poultry 
and egg products with continuous inspection mandated as opposed 
to the FDA's laws, which require a risk based approach which is 
not continuous. So you still have those commodities outside of 
meat, poultry and egg products that do not have the requirement 
for a continuous inspection, together with those inspectors who 
must be in the meat, poultry and egg plants under----
    Mr. Murphy. Why can't you make that adjustment? Why can't 
we design it so--I think with some of these issues here, unless 
there's really an entirely different graduate degree required 
to inspect one thing versus another, can't there be some 
overlap and cross training of skills, someone could check a 
couple things at the same time, beef broth, beef soup, chicken 
and the eggs?
    Mr. Brackett. Congressman, there are also cases where this 
is being done now. A good example might be a plant that 
produces a cheese pizza and a meat pepperoni pizza, in which we 
have an MOU with the FDA so that their inspectors are looking 
at everything. If they happen to see something related to the 
cheese pizzas, they have the authority to call us, we come in 
there, so they are eyes and ears----
    Mr. Murphy. Call you into what?
    Mr. Brackett. To act upon the observations that they have 
made.
    Mr. Murphy. But they don't have the authority to take other 
actions, they can't simply say, there's something wrong with 
the cheese here?
    Mr. Brackett. Or perhaps that it was produced under 
unsanitary conditions. But now with the new Bioterrorism Act, 
that will allow us to actually give them that authority, and we 
are looking into that possibility of doing that.
    Mr. Murphy. So they wouldn't have to call in another layer 
of bureaucracy. Yes, Mr. Dyckman.
    Mr. Dyckman. Again, I want to emphasize that we're not 
calling for reorganization or consolidation first, without 
looking at the basic underlying statutes. I think your 
assumptions are correct, that it would make no sense to just 
reorganize with the same statutory legislation requirements, 
because that would tie up the flexibility that you would gain 
by a reorganization. So I think what we're talking about is 
looking at the enabling legislation, coming up with a uniform 
food safety piece of legislation, and then considering how best 
to reorganize.
    Mr. Murphy. Do we know what the level of administrative 
costs are of having these multiple agencies?
    Mr. Dyckman. We have issued a report, it's several years 
old, that documents the costs of each agency. What we have not 
done is try to estimate what would be saved by consolidation. 
That's a little more difficult.
    I might add that one of the countries that we will be 
looking at that did consolidate, they originally estimated, I 
think, a 7 percent initial startup cost, but they hope to save 
13 percent in the mid-term. So those are the types of things we 
will look at when we look at the foreign country experiences, 
so we might have some additional information on other 
countries' experiences with this issue.
    Mr. Murphy. That would be helpful. Thank you.
    Ms. Davis of Virginia. If the gentleman would yield to me 
for just 1 second, let me just be clear on the cheese and meat 
pizzas. I think you said it depends, sometimes there's overlap 
if they did both at the factory. Do I take it to mean that you 
inspect it at the manufacturer, and if that's the case, I 
wouldn't think DiGiorno has a cheese manufacturing plant and a 
meat manufacturing plant, do they?
    Mr. Brackett. No, they don't.
    Ms. Davis of Virginia. Don't most of the frozen pizzas, 
don't they do them all in one place?
    Mr. Brackett. Yes, Madam Chairwoman, they do that. But what 
I'm saying is those products that have a certain level of meat, 
that is, such as pepperoni pizzas, must be produced under 
continuous inspection. That is not the case with the cheese 
pizzas, which are under FDA authority.
    The other point that I omitted to say about the FDA 
inspectors is they often do have multiple responsibilities, 
that they also may do drugs, devices, other FDA regulated 
products, in which case they would have to have significantly 
more education.
    Ms. Davis of Virginia. I think you make the argument 
yourself for having one set of inspections. Because it bothers 
me a little bit that the cheese wouldn't be inspected very 
often but the meat is. You can do something to cheese as well 
as you could to meat, right?
    Mr. Brackett. You could do something, and if it's 
intentional, that's a different story. But one of the reasons 
that we look at it this way, too, is risk based inspection. 
Cheese pizzas are typically not considered one of the higher 
risk foods, so it would not necessarily get the same scrutiny 
that another high risk product will. Whereas in the case of 
USDA, and I'll let Dr. Pierson talk, their product, they don't 
have a choice, it must be done under continuous inspection.
    Mr. Murphy. I feel better already.
    Ms. Davis of Virginia. I'm glad you do, Mr. Murphy, because 
I don't.
    Mr. Murphy. I actually don't feel better.
    Ms. Davis of Virginia. I thought you were being a little 
facetious over there.
    Mr. Murphy. I did get sick off a cheese pizza once.
    Mr. Pierson. That's correct, for meat and poultry topped 
pizzas, the type of thing that Bob is talking about, they would 
come under our authority, that's our statutory authority for 
inspection on that particular case when our inspector has to be 
there at least one time during the shift, during the day at 
those operations. Slaughter operations, our inspectors have to 
be there continuously. So there's differences on that. But it's 
a presence each day in those operations.
    Ms. Davis of Virginia. I've gone way over my time, but Mr. 
Dyckman's dying to say something.
    Mr. Dyckman. Yes, I really don't want to pick on the frozen 
pizza industry, I love pizza.
    Ms. Davis of Virginia. It's the easiest one to talk about.
    Mr. Dyckman. Right. But I think their most substantive 
issues in terms of the whole issue of whether meat has 
continuous inspection or should it have continuous inspection 
or not. But another issue, you asked about overlap and 
duplication in general. Let me give you an example. Both USDA 
and FDA did risk assessments because of bioterrorism and the 
like. And they did them independently. Both agencies issued 
guidelines to the industries that they regulate in terms of how 
to protect for security issues. And they did those 
independently.
    And those are the types of issues that I think we're also 
talking about in terms of a scale of efficiency that would be 
appropriate and would be achievable if you had one agency.
    Ms. Davis of Virginia. I started something here. Dr. 
Brackett.
    Mr. Brackett. Thank you, Madam Chairwoman. The point I'd 
like to make, or correction for the record, which is that the 
vulnerability assessments at USDA and FDA were done 
collaboratively, sitting down together, going through the whole 
thing. The guidance documents were done separately, because 
again of our constituencies and our knowledge of the particular 
commodities. So USDA had one set for meat and poultry and FDA 
had some for our commodities. But that was mainly a means of 
communicating to our regulated constituency.
    Ms. Davis of Virginia. Thank you. Mr. Van Hollen, I will 
yield to you for questions.
    Mr. Van Hollen. Thank you, I'll just wait to hear the next 
round of testimony.
    Ms. Davis of Virginia. Mr. Davis, do you have any other 
questions?
    Mr. Danny Davis. Well, I do indeed, thank you, Madam 
Chairwoman.
    Dr. Pierson, I know that Mr. Glickman, former Secretary of 
Agriculture, is going to testify on the next panel that due to 
a lack of resources, products in FDA's regulatory system do not 
undergo as thorough an inspection process as products under the 
U.S. Department of Agriculture's jurisdiction. My question is 
how would coordination efforts address these concerns? And 
would Mr. Glickman's concerns be better addressed if one entity 
had the resources and responsibilities for all the inspections?
    Mr. Pierson. I think it all boils down to, again, the issue 
of statutory authorities. What Congress has passed is the acts 
under which we operate. Those provide that basic difference, 
basic differences between what FDA does and how they carry out 
their functions and what we do as FSIS. There are just certain 
fundamental requirements there for our continuous inspection 
and our continuous presence.
    Mr. Danny Davis. But would not the products require as much 
review or as much inspection? What we say is, because of their 
statutory authority----
    Mr. Pierson. I think what you're driving to is what you 
would call a risk based inspection system. That's something 
that we're working on very hard, how to prioritize those risks 
and where do we best place the resources in that food system. 
And so we were of course identifying what are the risks, and at 
what point should these risks be best controlled. So we want to 
redeploy the inspection force such that we do address those 
priority issues. Certainly we need to collaborate as the laws 
now exist with FDA in those priorities.
    I'll give you an example, the risk ranking that was done in 
collaboration with FDA for listeria monocytogenes. And we 
addressed those areas with the highest risk, and for instance 
on our part specifically passed a regulation that addressed 
listeria monocytogenes and its control in ready to eat meat and 
poultry. As a matter of fact, our regulatory compliance 
sampling as a result of that has shown significant reduction in 
terms of positive ready to eat samples for listeria 
monocytogenes.
    So it's an example of where yes, there's collaboration and 
we did our risk ranking and identified where the greatest risks 
are and placed resources in that area. The type of model I 
believe you're driving at is the same thing or the same 
direction we should be going to. That's where we're headed.
    Mr. Danny Davis. Thank you very much, Madam Chairwoman. I 
have no further questions.
    Ms. Davis of Virginia. Thank you, Mr. Davis. Mr. Deal.
    Mr. Deal. Thank you, ma'am.
    Mr. Dyckman, in your report you talk about the area of 
claims of health benefits. And you point out that both FDA, 
USDA and the Federal Trade Commission all have that certifying 
responsibility to varying degrees. I assume that's a function 
that you would also recommend be consolidated, and if so, do 
you have a preference as to where that consolidation should 
occur?
    Mr. Dyckman. I think it would follow the same lines as 
where the inspection activities would be consolidated. The 
issue there is again, different legislative responsibility, 
different legislative authorities. When we did our report on 
functional foods and dietary supplements, we found again big 
differences between the legislative authorities that each 
agency has, and that accounts for the differences in the 
quality of or the types of claims that different products can 
make, whether it's a dietary supplement, whether it's a food, 
whether it's a functional food.
    So I would say that it would still follow wherever the 
inspection activities would go, that agency should have the 
lead on that as well.
    Mr. Deal. The reason I think that is a little more 
difficult question is that there are certain certifications 
both at the production level and at the processing level. If 
you're only at the tail end of the system, it's pretty hard to 
verify the claims that are inherent in the production phase of 
it.
    Mr. Dyckman. No question about that. And the 
inconsistencies that we found relate to the testing evidence 
that has to be presented by the manufacturer depending on the 
type of product that's involved.
    Mr. Deal. Let me go to the border situation. We do have the 
border agency now that has that responsibility, I believe USDA 
still continues, and I presume FDA has some responsibilities 
there, too. Is that a function of border inspection that could 
be consolidated? It appears to me that there could be some 
consolidation. Does it make a difference whether the product 
that is coming across the border is in the process stage versus 
the unprocessed stage, and how would that kind of consolidation 
end, under what agency would it take place?
    Mr. Dyckman. Representative Deal, you're getting into a 
line of questioning that is appropriate, but we haven't done 
the work to look at all the different factors. Obviously border 
inspections are different than food inspections at a plant. It 
could very well be that, and Homeland Security has 
responsibilities as well. So there's another agency involved.
    I don't have the short answer for that question in terms of 
which is the most appropriate agency. It could be that the 
responsibilities, if you only take the inspection in food 
processing facilities and consolidate that, it could very well 
be that we might decide to leave some other responsibilities 
with the current agencies.
    Mr. Deal. This is my final point. The difference between 
standards of production and standards at the processing stages, 
we have some legislative problems there, and I've used the 
organic industry as an example. And I think it's a classic 
example where we, through the Organic Standards Board, have 
given them authority to set certain standards. But they are 
basically self-certifying, no pesticides, no commercial 
fertilizers, no GMOs, etc. But they have their own certifying 
agencies.
    We found, as I was looking into it, a dairy farmer whose 
wife was his certifying agent, that he had complied. And if 
there is no testing at the processing stage to verify the 
things that are inherent in the production requirements, there 
is a huge inconsistency and I think quite frankly a misleading 
of the public and perhaps even some safety factors that ought 
to be considered.
    So it's not a simple issue, and I think it does require a 
comprehensive review of everything that we have out there. Once 
again, a piecemeal approach may not produce us any better 
results than our piecemeal approach we currently have.
    Mr. Dyckman. I agree with you. What I would hope though is 
that at some point, and it might occur next month, next year or 
in 5 years, that the Congress decides, well, the current system 
is not the best system, so let's begin. We have to begin 
somewhere. Let's put together a panel that is not going to 
decide whether or not we will consolidate, but how do we go 
about consolidating, what is the best way to revise and to 
restructure the current system, which is clearly a patchwork 
system.
    Mr. Deal. Thank you, Madam Chairwoman.
    Ms. Davis of Virginia. Mr. Murphy, do you have any other 
questions?
    Mr. Murphy. Yes, I just want to followup on an area that 
has to do with how information is shared between all the 
agencies. For example, are there alerts or communications and 
training that takes place between the agencies, so people are 
going through the same training processes, or does everybody 
have their own, with training on how to do inspections? Any 
crossover there?
    Mr. Dyckman. I'll let FDA and USDA respond.
    Mr. Brackett. Thank you. Well, as I mentioned earlier, 
because our inspectors do have multiple authority, they do get 
specialized training. And it may be different than that for 
USDA, and I'll let Dr. Pierson talk about that. Because each of 
these commodities takes a special knowledge.
    But we do communicate directly, calling each other, we know 
each other, when we have issues, we share them. We also serve 
on committees together to look at the scientific basis and the 
risk rankings for the different foods. And in fact, Dr. Pierson 
and I, Dr. Pierson is chair and I'm vice chair of the 
microbiological criteria for foods, in which we both use the 
scientific knowledge and share the scientific knowledge and 
issues with each other in deciding on what we're going to do.
    Mr. Pierson. The training that we provide for our 
inspection force is of course very specifically designed to 
inspect relative to the meat and poultry as well as egg product 
inspection acts and the regulations that we promulgate based 
relative to those acts. Those would be fundamentally different, 
of course, than under the Federal Food, Drug and Cosmetic Act. 
So you have to train according to those requirements, that's 
one.
    There are some basic principles, quite frankly, that are 
similar, such as in the hazard analysis critical control point 
concept that's used for food safety management.
    Mr. Murphy. Is that training done together, between 
agencies, or is that separate?
    Mr. Pierson. No, because they are under the USDA, FSIS, all 
meat and poultry plants must have developed and implemented 
HACCP systems. And these HACCP systems, this rule as 
promulgated is of course relative to our authorities, too. 
Whereas FDA, Bob could speak to it relative to seafood, for 
example. So there are some differences relative to the basic 
approach to inspection. There are commonalities.
    Let me mention if I could briefly, where you have this dual 
jurisdiction issue that our inspectors are trained on those 
overlap areas.
    Mr. Murphy. That's important to know, that they're capable 
of doing that. Also, is there any sharing of computer 
information files, data back and forth between agencies? Are 
the computers compatible in communicating that information back 
and forth between all these agencies?
    Mr. Pierson. As far as our inspection activities, because 
of the different approach, I think we don't have systems we 
share such as that. But we do in fact, when we work, for 
example, on risk assessments, collaboration on risk 
assessments, we would share back and forth.
    Mr. Murphy. But you have to share then in terms of 
producing a report, and that has to then, or I'm thinking, when 
you're dealing with, whether it's the feed or beef and poultry 
and also with the grains and etc., whether it's in the early 
stages or it's in the processing, that if there's information 
that comes across in terms of risk alerts or management or 
training issues, that those would be shared across all 
agencies. Does that happen or does that not occur?
    Mr. Pierson. Certainly in issues, we definitely notify one 
another. I was thinking of an example, for instance, in the 
school lunch programs. If in fact there is an issue that might 
occur, there's a Food and Nutrition service under which there's 
a responsibility. We work very closely with Food and Nutrition 
Service if in fact there's an unfortunate event of a food-borne 
disease outbreak.
    In fact, we then will work in collaboration with FDA when 
those involve potential FDA products. So there has to be a 
seamless operation to immediately share that information such 
that FDA is well aware of what's happening. As a matter of 
fact, we end up doing that, too, very closely in working with 
States.
    Mr. Murphy. Given that, it just seems to me to solidify the 
idea that if everybody's on the same mission and you begin to 
at least have some ways of communicating between folks, I still 
don't understand why we need different agencies to do it. Dr. 
Brackett.
    Mr. Brackett. Thank you, Congressman Murphy. We do have, 
and are looking toward actually sharing real time data. For 
instance, in the President's budget there is a laboratory 
reporting network system known as E-Lexnet that is going to 
serve as the platform for both USDA as well as FDA and State 
laboratories. So we are cognizant of that, we are working 
toward that end.
    Mr. Murphy. Thank you, Madam Chairwoman.
    Ms. Davis of Virginia. We're going to move on to the second 
panel, but I just want to leave Dr. Brackett and Dr. Pierson 
with this last question. If you were to design our food 
inspection agency today, would you use the system that we have 
today? If not, why not?
    Mr. Pierson. Coming from an academic background, that's 
like a prelim question.
    Ms. Davis of Virginia. Yes, it's sort of a loaded question.
    Mr. Pierson. Thank you very much.
    Before I came to USDA, I thought, gee, wouldn't that be 
nice to consolidate it into a single agency. But after 
experiencing the Federal Government and the Federal Government 
process and the agency, I'm not trying to avoid you, Madam 
Chairwoman----
    Ms. Davis of Virginia. Sure you are, but it's OK.
    Mr. Pierson. But anyway, what I come out with is that 
before we just jump into such a thing, before we consider such 
a thing, we have to make darned sure what we're doing is the 
right thing, that we're protecting public health. And whatever 
that system might be, I think we have to build it upon 
assurance of public health and the outcome, if it's a single 
agency, if it's such as we have now, if it's redoing the acts, 
let's go one of those directions, let's pursue one of those. 
But let's not just jump into it without giving very careful 
thought and attention.
    Ms. Davis of Virginia. I don't think you'll have any 
argument from me. I'm not one to want to jump into anything.
    Mr. Brackett. Madam Chairwoman, I agree with Dr. Pierson. 
The critical thing is to maintain public health and to continue 
having the safest food system in the world that we do have now 
and we do enjoy. A single food safety system or one involving 
several different agencies or a number of different agencies 
are two different models that one could use. I think it would 
take a complete fore-thinking of what we would be losing with 
the current system versus what would we be gaining, the 
underlying statutes as we mentioned earlier, to be sure that we 
don't lose public health, that we don't lose public trust.
    Even though we have a number of different agencies involved 
now, I prefer to think of it less as a fragmented system and 
more as a tapestry.
    Ms. Davis of Virginia. With that, gentlemen, I want to 
thank you all for your patience and your understanding, for 
being here today, and I hope we didn't grill you too much. I'm 
sure we'll have other questions as time goes on.
    I'd now like to invite our second panel of witnesses to 
please come forward to the witness table. First, we will open 
with a statement from the Honorable Dan Glickman, former 
Secretary of Agriculture and Member of Congress. Then we will 
hear from Carolina Smith DeWaal, Director of Food Safety at the 
Center for Science and Public Interest. I want to thank you 
two, as well, for being so patient.

STATEMENTS OF DAN GLICKMAN, DIRECTOR, JOHN F. KENNEDY SCHOOL OF 
    GOVERNMENT, HARVARD UNIVERSITY, AND FORMER SECRETARY OF 
AGRICULTURE; AND CAROLINE SMITH DEWAAL, DIRECTOR, FOOD SAFETY, 
             CENTER FOR SCIENCE AND PUBLIC INTEREST

    Mr. Glickman. Thank you, Madam Chairwoman. Let me say that 
I spent 18 years in this body----
    Ms. Davis of Virginia. So you understand.
    Mr. Glickman. And I also spent many times in this room, 
many hours in this room, which the Judiciary Committee has some 
of their subcommittees operating under at times. So to all of 
you here, Mr. Murphy who I don't know, Mr. Deal, who I did 
serve with, Mr. Davis, Mr. Van Hollen, it's a pleasure to be 
here.
    As you know, now I'm at Harvard, not because I could get 
in, because Mr. Van Hollen was a good predecessor of mine, but 
I run a program there at the Kennedy School. I'm a little bit 
probably less partisan than I used to be. But this has been a 
terrific hearing. I think everybody has asked amazing 
questions. One of the best hearings I've ever heard on food 
safety, and it's a pleasure to be here with my friend, Caroline 
Smith DeWaal.
    Let me just make a couple of comments. One of the big 
issues here is resources. USDA has all the resources. FDA has a 
pittance of resources. The truth of the matter is, one of the 
problems is that they have probably, USDA has probably more 
resources per problem than FDA does. So we have a mis-
allocation of resources in terms of these issues.
    One of the first things I would recommend to you is that 
should be a, the allocation of resources in food safety should 
be done on the basis of a comprehensive, qualitative and 
quantitative risk assessment. Mr. Murphy talked about this. To 
my knowledge, that has never been done. Who does what in the 
Federal Government on food safety? What kinds of resources do 
they get, and what kinds of public safety protection is there 
in there?
    Until you get to that question, you can't really decide how 
you want to reorganize this stuff. We can talk about pizza and 
chicken broth until we're blue in the face. But quite honestly, 
the real issue is the threat to the American people from 
contaminated and infected food. We have never done that kind of 
assessment to figure out where the threats are, where the 
resources are. Maybe we have mis-allocated them dramatically. I 
suspect that we have. And that's one of the things that maybe, 
I think that will take some legislation to do that. But that's 
something I would recommend to you.
    The second thing is, I believe that we need to consolidate 
desperately. I was Secretary at a time when we went through the 
HACCP program, we had a lot of food safety problems, it was 
after the Jack in the Box situation, it was before the BSE 
issue, which by the way I think my successor has handled very, 
very well in quelling any kind of fears out there.
    But you know, H.L. Mencken once said, for every complicated 
problem there is a simple and a wrong solution. I would like to 
tell you that this problem is simply solved by just creating a 
single food safety agency. But what happens to issues like GMOs 
which may be safety related or may be trade related? Sanitary 
and phytosanitary barriers of other countries, hormones, 
antibiotics. There are a whole litany of problems there that I 
suspect while we might be able to get a consensus in this room 
that are food safety related, out in the country side and among 
the constituency groups, I don't think you could do that.
    On the other hand, if we were to start the system up today 
as I think Mr. Davis and you, Congresswoman, suggested, it 
would never look like the system we have today. So let me tell 
you where I think we ought to start. We ought to start with the 
inspection functions. We have 10,000 or so inspectors in the 
USDA or FSIS employees and about 10 percent of that at the FDA. 
We have a mis-allocation of inspectors.
    One of the things I recommend you do is you look at this 
inspection force of food and we try to consolidate that 
inspection force. Mr. Murphy talked about cross training. We 
don't do any cross training to speak of, really quite honestly 
it's very nominal. And we could, as a first step toward 
consolidation, we could begin the process to cross train and 
cross deputize food safety employees so that they could do the 
various functions either at the border or at the meat and 
poultry plant or at an egg plant, or at a pizza plant or 
wherever else it is.
    I suspect what you're going to find is that people are not 
necessarily, and the resources are not necessarily always where 
the threats are.
    Now, to do what even I'm talking about is no simple task. 
There are an awful lot of people who have a stake in the status 
quo, and don't want any changes in the system whatsoever. Some 
employees, some companies, there are people who think the 
system is just fine the way it is.
    But we are bound to face more serious food safety threats 
in the future. Where I think you need to go down the road is to 
allocate and focus your attention on what are the most serious 
food safety threats, which are both naturally occurring, 
whether it's salmonella, e coli, listeria, campylobacter, all 
of the basic threats that we know people get, whether it's the 
unnaturally occurring, terrorist type or insidious type of 
activities, both in terms of internal processing plants and at 
our borders. And then focus on what resources are there 
necessary to employ enough inspectors at every one of these 
places of high vulnerability and cross train them, cross 
deputize them, and they're probably going to have to ultimately 
be subject to one agency or a lead agency in that process. 
Whether that's USDA or FDA or somebody else, I think that's the 
main road.
    If you wanted to really start out, if you really wanted to 
protect the public interest, that's where I think you have to 
protect the public interest. Because if you have an inspection 
problem in south Florida, or on the border in North Dakota or 
some place else, and you don't have any FDA inspectors there or 
far too few USDA or some Homeland Security inspectors, and you 
want to get some others who are more in surplus positions, we 
can't do that right now. We can't cross deputize.
    Now, the States and the Federal Government have some 
memorandum of agreement, but I must disagree a little bit with 
both speakers who were here today. The truth of the matter is, 
there is no seamless structure between the agencies. Everybody 
does their job the best they can. And by the way, most do a 
good job. Most of the employees are really hard working and 
doing their best. But there is not seamlessness there.
    Let's look at the recent BSE crisis, which was handled 
very, very well. When there is a crisis at a national level, 
the agencies can usually get together pretty well. But on the 
day to day threats that occur, those are the problems that 
really worry me very, very much. So I would suggest that you 
look at the inspectors, focus on trying to consolidate their 
functions and if necessary, make the statutory changes to do 
that, to give them the authority to, and this is going to take 
a few years, this is nothing that's going to happen overnight.
    And probably not get too hung up on one single food safety 
agency that you're going to end up with every trade problem in 
the history of the world, every export-import problem, all 
sorts of things that are perhaps not classic trade problems 
that we're going to find in that category because of turf 
battles here in the Congress, because of problems with industry 
and employee groups are really never going to get solved.
    One final point I would say is this, and again, I would 
say, I think there have been better questions raised here in 
this hearing than I have heard in all the years that I was in 
USDA on this particular point. I would encourage you as members 
to be, one thing that always struck me about FAA is the 
oversight over FAA and the airline industry was impeccable in 
this country. Because one accident occurs and it's absolutely 
catastrophic usually. Not to mean that it's not perfect, and 
the accidents have produced what I call a better Federal 
oversight over safety issues. Even with airlines that are in 
problem areas financially, you don't really worry about the 
fact that they're not doing the work that needs to be done.
    And I would encourage you in the Congress, and I encourage 
the White House to give this matter of food safety oversight 
continuing attention and not just when there's a BSE crisis. 
Because I'm telling you, that's what happens here.
    I don't know if they kept it up, during the Clinton 
administration, we had the President's Council on Food Safety, 
which had all the various agencies that would meet 
periodically. I don't know whether that has continued to meet 
or not. It should. And it ultimately may be that the President 
is going to have to designate an agency to kind of be in 
charge, at least on paper, of all these kinds of situations.
    But I would also encourage the White House to have this 
constant level of engagement. These people are trying to do the 
best job that they can. Unfortunately, they couldn't answer 
your last question because it was a political question. If I 
were them, I would be scared to death to answer that kind of 
question as well.
    Ms. Davis of Virginia. I didn't expect them to answer it.
    Mr. Glickman. But what you've done is you've raised very, 
very good questions. This is a complicated issue. The science 
is evolving, the threats are evolving, the pathogens are 
evolving. They're even becoming more virulent all the time. And 
what you need is an inspection force, at least initially, it's 
a little bit like the armed services, we need an inspection 
force that's ready on the ground to protect the American people 
against the most basic threats there are. Then you move out 
after that to try to deal with perhaps some of the more 
comprehensive type problems.
    Thank you.
    [The prepared statement of Mr. Glickman follows:]

    [GRAPHIC] [TIFF OMITTED] T5290.079
    
    [GRAPHIC] [TIFF OMITTED] T5290.080
    
    [GRAPHIC] [TIFF OMITTED] T5290.081
    
    Ms. Davis of Virginia. Thank you very much. We appreciate 
all your insight and all the years that you were here to learn.
    Mr. Glickman. Sometimes those years don't give you insight. 
But I got the chance to say it anyway.
    Ms. Davis of Virginia. When you get outside, you get the 
insight. [Laughter.]
    Ms. DeWaal, thank you for your patience and you're now 
recognized for 5 minutes.
    Ms. DeWaal. Thank you so much, and it's so hard to follow 
former Secretary Glickman.
    I'm director of food safety at the Center for Science in 
the Public Interest. I'm also a constituent of Representative 
Van Hollen, and I really appreciate the opportunity to testify 
today.
    CSPI is supported by 850,000 subscribers, and we have no 
either Government or industry money, which means our views can 
be very independent. I've been monitoring this issue since 1997 
and have been involved in the issues of food safety for well 
over a decade.
    Nearly 100 years ago, Congress passed the food safety laws 
that form the basis of Government food inspection. Today, two 
Government agencies inspect the food supply. USDA checks meat 
and poultry processors daily, including inspecting each 
individual carcass, meat or poultry carcass, individually. FDA 
meanwhile has authority for all other food products, including 
many other high risk products, like seafood, fresh fruits and 
vegetables and raw eggs, but manages this mandate on a 
shoestring budget.
    In 1997, the huge resource imbalance between FDA and USDA 
led CSPI to call on Congress to cerate a single, independent 
food safety agency, so that the Government could apply 
resources more equitably to all the foods that pose the 
greatest risk to the public. In 1998, the National Academy of 
Sciences published a report that also called for consolidation 
of food safety responsibilities under a single statute with a 
single budget and a single leader. This report, entitled, 
``Ensuring Safe Food from Production to Consumption,'' 
concluded that, ``The current fragmented regulatory structure 
is not well equipped to meet current challenges.''
    Here are just a few examples. Food safety problems that 
start on the farm often fall through the cracks completely of 
agency jurisdiction. The same food processing plant may get two 
entirely different food inspections as we have seen with the 
pizza example. Quality inspections sometimes occur more 
frequently than safety inspections, as happens in the egg 
industry. New food safety programs like HACCP are implemented 
completely differently at USDA versus FDA. And multiple 
agencies may prolong the time that it takes to bring the 
benefits of new technologies to the consumer.
    Let me highlight a few other examples. One is that the 
coordination with the State agencies that handle food safety is 
literally a nightmare. State laboratories that analyze food 
samples for chemical or microbiological contamination, which 
are critical in our fight against bioterrorism, for example, 
these labs have complained about the lack of uniform testing 
methods and about inconsistent reporting requirements with the 
Federal agencies. They have to provide samples to USDA, FDA, 
CDC and EPA.
    And under the current structure, imported products are 
treated completely differently if they're regulated by FDA, 
which just does a border inspection and USDA, which actually 
goes to the country, they approve the program, they approve 
each individual plant and they check 20 percent of the meat or 
poultry that's crossing the border.
    In a global marketplace, other countries are moving quickly 
to modernize their food safety programs. And the United States 
is falling behind, literally, when it comes to having a modern 
food safety statute and mandate. Numerous countries have 
already created unified food safety agencies that cover the 
entire food supply. And in Europe, especially, this effort was 
driven by the BSE crisis.
    It's clearly not news to anyone that statutes designed when 
the model Ts were being driven are not suited to address modern 
hazards. But make no mistake, if the terrorists were to strike 
the U.S. food supply, consumer confidence in the Government's 
fractured food safety programs would plummet as far as 
confidence in airport security did following September 11th. 
Even Dr. John Bailar, the chairman of the National Academy of 
Sciences Committee calling for a more unified food safety 
structure, said ``When bioterrorism is added to the mix, the 
case for prompt and sweeping change becomes compelling. While 
additional tinkering with the details of our food safety system 
might be helpful, the consolidation of responsibilities, 
authorities and resources for food safety into a single high 
level agency is critical.''
    Today, a unified agency operating under a modern food 
safety statute is truly an issue of national security. Thank 
you.
    [The prepared statement of Ms. DeWaal follows:]

    [GRAPHIC] [TIFF OMITTED] T5290.082
    
    [GRAPHIC] [TIFF OMITTED] T5290.083
    
    [GRAPHIC] [TIFF OMITTED] T5290.084
    
    [GRAPHIC] [TIFF OMITTED] T5290.085
    
    [GRAPHIC] [TIFF OMITTED] T5290.086
    
    [GRAPHIC] [TIFF OMITTED] T5290.087
    
    [GRAPHIC] [TIFF OMITTED] T5290.088
    
    [GRAPHIC] [TIFF OMITTED] T5290.089
    
    [GRAPHIC] [TIFF OMITTED] T5290.090
    
    Ms. Davis of Virginia. Thank you so much, Ms. DeWaal and 
Secretary Glickman.
    We'll now go to the question and answer period, and I'll 
call on Mr. Davis, our ranking member, for questions.
    Mr. Danny Davis. Thank you very much, and I too want to 
thank the witnesses especially for their patience. Mr. 
Glickman, Dr. Brackett testified that the Department of 
Homeland Security has taken the lead in establishing national 
policy to defend the agriculture and food systems against 
terrorism. However, you testified that the creation of DHS 
creates a disincentive for the Congress to make fundamental 
changes in the short term.
    DHS appears to be working collaboratively with the 
Department of Agriculture and the Food and Drug Administration 
to address food safety concerns as it pertains to terrorism. If 
DHS is actively involved in the process, do you still believe 
that Congress needs to act in the short or the long term?
    Mr. Glickman. First of all, I think that, my judgment is 
that the jury is still out on DHS and what they're doing in the 
bioterrorism areas that affect food and agriculture. I think 
they're trying their best, and I'm not privy to the systems 
that are going on there. But there has been an enormous amount 
of reorganization in the Government as a result of DHS. For 
example, Animal Plant Health Inspection Service at USDA, which 
is the lead agency for basically inspecting imports of animal 
products, other food products, has seen its mission further 
divided as a result of the Department of Homeland Security. 
Some of their mission is now in DHS, some of the mission 
remains in USDA.
    So in effect, what we have done as part of that statute is 
further complexify it, as opposed to consolidating, we 
basically divided. What it's done, I suspect if you talk to 
people in USDA, and maybe this is just temporary, is that it's 
created morale problems and is has not enhanced a lot of the 
feeling that USDA is out there largely promoting its own food 
safety functions. That's to be, I assume that's to be expected 
because of what happened after September 11.
    I guess my point is that the Department of Homeland 
Security is still feeling its own oats, and I'm not sure that 
is not going to interfere to some degree with the possibility 
of consolidating food safety functions. Because my guess is 
they're going to want to have more and more jurisdiction over 
these issues, not less and less.
    Mr. Davis. Ms. DeWaal, how would you rate our system and 
the safeness of our system with that of other countries?
    Ms. DeWaal. I appreciate your question. I think we're 
blessed with a very safe food supply compared to many other 
regions of the world. That said, there is a lot we can improve. 
And unfortunately, our system, our fractured Federal system 
actually stands in the way of us correcting some well known 
food safety problems.
    Our representative from GAO today mentioned the egg issue. 
We've known for almost 10 years that you could solve, you could 
virtually eliminate illnesses from eggs by instituting on-farm 
controls. We've known that. We've had pilot studies. USDA ran 
them. They were very, very effective. Yet we don't have a 
regulation in place that actually implements them, because it 
took them a bunch of years actually under the Clinton 
administration to just figure out who was in charge of eggs.
    One agency today regulates chickens, another regulates eggs 
and a third regulates the meat from the chickens. In almost 
every problem we end up with that kind of division where almost 
three agencies are involved. So I think that we have some areas 
of the food supply that are very safe but other areas that 
desperately need improvement.
    Mr. Glickman. I just want to add one thing. One of the 
positive notes in all this is large sectors of private food 
industry have actually moved ahead of the Government in doing 
food inspection and setting up systems that are actually more 
stringent than what either the FDA or USDA requires. That's a 
trend we have to continue to encourage.
    Mr. Danny Davis. Ms. DeWaal, can I infer then that you're 
saying that it's really time to bite the bullet and go ahead 
and put in place an agency that has this responsibility?
    Ms. DeWaal. Exactly right. The rest of the world is really 
moving ahead of us in this area. You know, we're the United 
States, we don't want to be behind in anything. So I really 
think it is time to bite the bullet and move forward.
    Mr. Danny Davis. Thank you very much. I have no further 
questions.
    Ms. Davis of Virginia. Thank you, Mr. Davis. Mr. Murphy.
    Mr. Murphy. Thank you, Madam Chairwoman, and welcome here.
    I'm from Pennsylvania, so your comments about the hepatitis 
A outbreak are particularly a concern to me. I just want to 
followup with regard to this. In your written testimony you 
talk about meat that's imported is inspected by the USDA at two 
points, once onsite at the farm and once at a processing plant, 
then maybe inspected again somewhere after that. But plants 
that come in, vegetables that come in are only inspected once 
they reach this country and then only 1 to 2 percent?
    Ms. DeWaal. That's right.
    Mr. Murphy. Now, of that 1 to 2 percent, if you have 
several hundred bushels coming from the same farm, does that 
mean that, maybe green onions or something, 1 or 2 percent of 
that particular farm is inspected, or it's just 1 to 2 percent 
of anything? So a whole farm could go by with no inspection at 
all?
    Ms. DeWaal. In most cases, whole farms are going by and 
never being inspected. At FDA, they don't have authority to go 
to the foreign country to check.
    Mr. Murphy. But USDA does?
    Ms. DeWaal. USDA does.
    Mr. Murphy. Why not?
    Ms. DeWaal. It goes back to these hundred year old statutes 
that were just designed differently.
    Mr. Murphy. So even when there is an outbreak, it's tough 
to get authority to go back and inspect the farm in Mexico or 
wherever that might be?
    Ms. DeWaal. They can't go unless they're invited by the 
country. But USDA can go any time they want.
    Mr. Murphy. Clearly there's an arcane rule that needs to 
change to allow us to do that.
    Also, you were here before when I asked the question about 
communicating between agencies. Mr. Secretary, I'm wondering, 
with your experience, if you can comment on that because part 
of my sense is if Congress wants to answer a question, we have 
to go to each agency and ask the same question. Hopefully then 
they'll give it to us. But then we have to fit the pieces 
together after that. Is that your understanding?
    Mr. Glickman. That's correct. It's absolutely correct. In a 
crisis, the agencies communicate rather well. Because usually 
the political pressures from the Congress are very great and 
the White House to get people together at the table at the same 
time. That's how this President's Council on Food Safety was 
ultimately created.
    But these processes don't seem to have any sustained life 
to them. So right after the BSE epidemic, which thank God was 
only one case in this country, is over, or the e coli epidemic 
is over, we kind of go back to the way we were, everybody doing 
their own thing.
    Mr. Murphy. Let me add another layer to that. Then you have 
the State departments, whether it's a department of agriculture 
or a department of health, also trying to coordinate it. My 
assumption is they also face the same dilemma. So in 
Pennsylvania, we have the other issues with poultry and 
concerns about flu there. So they also then have to begin to 
talk to different agencies and coordinate that. But that's a 
day to day issue for them.
    Mr. Glickman. Yes, actually, FDA does have some agreement 
with States, they have these collaborative agreements. One 
thing I would tell you is, you may want to consider looking at 
the statutes to see if in fact the agencies are really 
authorized to have collaborative or joint operating agreements. 
And I'm not sure they necessarily are. For example, USDA's 
Forest Service and the Department of Interior now operate under 
joint operating agreements with respect to some park and forest 
facilities. I'm not sure, as a matter of fact, if there's 
different statutory formulas and bases, whether they can do 
that under current law.
    Mr. Murphy. Do you have anything to add to that, Ms. 
DeWaal?
    Ms. DeWaal. FDA does have agreements, cooperative 
agreements, for the inspections by the States. In fact, what 
we've seen over the years is more and more of the food safety 
inspections are actually being done at the State level. So 
Pennsylvania probably has a very active inspection program at 
the State level. Pennsylvania also was where the pilot study 
was run which showed the on-farm controls for salmonella in 
eggs was very effective.
    So the States are very effective in this area, but they 
have trouble coordinating with the Federal Government.
    Mr. Murphy. Does that information then go up to the Federal 
level and the Federal people disseminate that to other States, 
or is that up to the States to figure that out between 
themselves?
    Ms. DeWaal. It's up to States to figure out. And again, 
during a couple of years during the 1990's there was an effort 
to bring the States together with the Federal Government. But 
in recent years, that effort has fallen apart. I know the 
States are anxious to get it going again, because they just 
need standards like consistent laboratory standards, and they 
need a way to interact with a Federal Government that is much 
more streamlined.
    Mr. Glickman. If there is a public health or an imminent 
disease problem, the Center for Disease Control is basically 
the agency of Government that tries to coordinate all this. 
Therefore, you've got another player in this game, which is 
CDC, which once there's an outbreak or once there's an 
epidemic, then they handle all the epidemiological data, all 
the transfer of information, a lot of the communications. And 
they are very engaged, by the way. I don't know what the 
resource needs are. But you can't really probably even 
consolidate a lot of these functions without considering what 
CDC's role is, because it's the disease prevention agency.
    Ms. DeWaal. But CDC then can't engage one of the Federal 
agencies until they know what food it is. So you have an 
outbreak going on, but they don't know which Federal agency to 
engage, because they don't know whether the food is regulated 
by USDA or FDA.
    Mr. Murphy. I appreciate the candor the two of you have 
brought to this situation, where it seems like there's a number 
of ongoing mistakes that have been made for decades. It reminds 
me of a Will Rogers quote where he says, good judgment comes 
from experience and lot of that experience comes from bad 
judgment.
    Mr. Glickman. My father used to tell me that all the time.
    Mr. Murphy. You learned well. [Laughter.]
    Thank you, Madam Chairwoman.
    Ms. Davis of Virginia. Thank you, Mr. Murphy. Mr. Van 
Hollen.
    Mr. Van Hollen. Thank you, Madam Chairwoman, and I want to 
thank both of you for being here today. Secretary Glickman, 
thank you for your service, and you're doing a good job from 
all reports up at the Kennedy School. Caroline, thank you for 
all you've done in this area over many, many years. I 
appreciate all your work in this area.
    I'm just struck by the fact, Mr. Secretary, you started out 
by pointing out that we have this huge resource imbalance 
between USDA and FDA. Then I turned to Ms. DeWaal's testimony 
where she says in 1997, the huge resource imbalance between FDA 
and USDA led CSPI and other consumer organizations to call on 
Congress to create a single independent food safety agency, and 
it goes on to cite a 1998 National Academy of Sciences report.
    It does remind me of the other point you raised, which is 
that so often, we respond to emergencies and there's a flurry 
of activity, and very quickly the political momentum behind any 
change gets lost. I think if there's one lesson coming out of 
the 9/11 Commission that can be generalized to all sorts of 
issues, which is where you have very credible evidence of a 
threat, it's important that we respond quickly and seriously to 
it. So I hope that we will not wait for another food type of 
emergency before we act on this issue.
    With respect to consolidation, there's one question that 
sort of, dealing with all these budgets and resources that 
comes to mind, which is, are we talking about consolidating 
existing resources and better utilizing them, or in order to 
get the safety results that we need, are we going to at the 
same time we consolidate, we're going to have to add resources 
and manpower to this issue? And if it's going to be a question 
of actually not just reorganizing, but adding people, 
inspectors to the process, has anybody, I haven't had a chance 
to look at the GAO report, has anyone taken a look at what 
additional manpower is required and what the cost would be to 
get the kind of system that we want that would really provide 
for food safety?
    Mr. Glickman. I think it's an excellent question. I do not 
believe there has been in recent years an independent, 
qualitative and quantitative risk assessment of food safety 
threats. So it's hard to really know how many inspectors we 
need.
    My judgment is we need more than we have overall. Although 
on the USDA's side, in terms of meat and poultry inspection, 
because of all the new HACCP systems, in the future we may not 
need quite as many there as we have in the past. That's 
controversial and a lot of people in the inspection community 
might disagree with me.
    But I suspect we need way more on the FDA side of the 
picture, then you need to make the law somewhat compatible in 
the process. But until you do that kind of assessment, you'll 
never really know.
    Ms. DeWaal. We are actually working with several Members, 
Representatives DeLauro and Latham on this side, and then 
Senator Durbin on the other side, on looking at this question 
of how to develop a risk based inspection system. So I hope 
that this committee would work with those Members or tackle 
your own issue of how to create this risk review, so that we 
can get inspection that's risk based today.
    We have more inspectors inspecting chickens at a rate of 30 
birds per minute than we have invested in any other area of 
food safety. And literally, we have Government employees who 
sit at one point on a line and watch birds, chickens plucked, 
broiler chickens fly by them. I've seen it in action, it's 
quite amazing. But it's amazing they can stay awake, too, 
because it's not an effective situation.
    Mr. Glickman. If I may add, just quickly, on the other 
hand, the new HACCP systems that are employed in many of the 
plants actually reduce that need, because they're a more 
science based system and they work very well. A lot of the 
pathogens you can't physically see as they go by, you've got to 
test these products to see what's in there.
    But one other thing I would warn you about, especially at 
USDA, the relationship between the inspectors and the 
management of the Food Safety Inspection Service is, shall I 
say, historically very unstable. And to go down this road, 
there are a whole lot of labor-management issues that are going 
to have to be addressed that are not going to be easy to 
tackle.
    Mr. Van Hollen. One quick followup. You talked about 
chicken being one of the most inspected items. Seafood, on the 
other hand, I gather, is one of the least inspected items, and 
that comes under FDA, I understand. I think the HACCP standards 
for USDA with respect to poultry are very different and uneven 
compared to the fish. Can you just talk about seafood for a 
moment?
    Ms. DeWaal. Seafood has been a fascinating issue, and 
actually when Secretary Glickman was a member of the House of 
Representatives he worked on a seafood inspection bill back in 
the early 1990's. Basically, while meat and poultry are 
inspected every single day, regardless of whether it's 
pepperoni being chopped onto a pizza or meat slaughter plant, 
seafood, they've actually improved now, they're up to once a 
year for the highest risk seafood plant.
    So the bottom line is, we have like products that pose a 
comparable risk but are inspected entirely differently. The 
HACCP systems are also entirely different, because the agencies 
just don't have the same kind of legislative authority.
    Ms. Davis of Virginia. Thank you, Mr. Van Hollen.
    I guess you heard, we have bells and whistles going off, 
because we have three more votes. I'm just going to ask you one 
question, to you, Secretary Glickman.
    Why do you think, this is an issue that has been studied 
for a long time, from what I'm gathering, why do you think any 
efforts to correct these deficiencies have pretty much gone by 
the way side and not brought any greater changes?
    Mr. Glickman. I think for several reasons. It's a 
fundamental question. One, the system is generally safe. It 
could be made safer, but it's generally safe. Second, American 
people have confidence in the safety of the system.
    Ms. Davis of Virginia. Keep in mind that the purview of 
this committee is reorganization. So we're looking for 
efficiency.
    Mr. Glickman. Right. But you asked why hasn't anything been 
done. And I think one of the reasons it hasn't been done is the 
public hasn't been clamoring for this, with the exception of 
when there is a food safety crisis. Then you tend to gin up, 
there tends to be more interest, then it tends to come back 
down again.
    My own experience after serving in the Congress, frankly, 
is the turf divisions between various congressional committees 
has a lot to do with this issue. I don't know if they are still 
as profound as they once were, but I suspect they are.
    Ms. Davis of Virginia. Every bit.
    Mr. Glickman. Fourth, by and large the White House, 
previous White Houses, have not viewed food safety in the same 
general, same area as they have viewed, let's say homeland 
security in recent years, or terrorism or those kinds of 
issues. I suspect you can do some consolidation and save some 
money. But I'll tell you, my judgment is ultimately we're going 
to have to spend more money on this issue, not less. It's just 
you'd like to have it spent on the inspectors out there in the 
field who are actually protecting the public interest.
    Ms. Davis of Virginia. Thank you both very much, and we 
will have some questions for the record that we will submit to 
you in writing. Rather than have you wait, we have three votes, 
it could be 45 minutes or so. So we will adjourn the hearing, 
and thank you both very much.
    Hearing is adjourned.
    [Whereupon, at 5:32 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5290.097

[GRAPHIC] [TIFF OMITTED] T5290.098

[GRAPHIC] [TIFF OMITTED] T5290.099

[GRAPHIC] [TIFF OMITTED] T5290.100

[GRAPHIC] [TIFF OMITTED] T5290.101

[GRAPHIC] [TIFF OMITTED] T5290.102

[GRAPHIC] [TIFF OMITTED] T5290.103

[GRAPHIC] [TIFF OMITTED] T5290.091

[GRAPHIC] [TIFF OMITTED] T5290.092

[GRAPHIC] [TIFF OMITTED] T5290.093

[GRAPHIC] [TIFF OMITTED] T5290.094

[GRAPHIC] [TIFF OMITTED] T5290.095

[GRAPHIC] [TIFF OMITTED] T5290.104

[GRAPHIC] [TIFF OMITTED] T5290.105

[GRAPHIC] [TIFF OMITTED] T5290.106

[GRAPHIC] [TIFF OMITTED] T5290.107

[GRAPHIC] [TIFF OMITTED] T5290.108

[GRAPHIC] [TIFF OMITTED] T5290.109

[GRAPHIC] [TIFF OMITTED] T5290.110

[GRAPHIC] [TIFF OMITTED] T5290.111

[GRAPHIC] [TIFF OMITTED] T5290.112

[GRAPHIC] [TIFF OMITTED] T5290.113

[GRAPHIC] [TIFF OMITTED] T5290.114

[GRAPHIC] [TIFF OMITTED] T5290.115

[GRAPHIC] [TIFF OMITTED] T5290.116

[GRAPHIC] [TIFF OMITTED] T5290.117

[GRAPHIC] [TIFF OMITTED] T5290.118

                                 <all>

</pre></body></html>
